               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Fiscal Year 2012 Postal Service
        Financial Statements Audit –
       San Mateo Accounting Services

                       Audit Report




                                          December 20, 2012

Report Number FT-AR-13-006
                                                                   December 20, 2012

                                                    Fiscal Year 2012 Postal Service
                                                       Financial Statements Audit –
                                                    San Mateo Accounting Services

                                                        Report Number FT-AR-13-006



BACKGROUND:
The U.S. Postal Service San Mateo           with accounting principles. In addition,
Accounting Services is responsible for      accounting transactions were fairly
accounting functions related to accounts    stated, and general ledger account
payable, centralized postage payments,      balances conformed to the general
capital personal property, motor            classification of accounts. Finally, the
vehicles, and supply inventory.             Postal Service complied with laws and
                                            regulations having a direct and material
We conducted this audit in support of       effect on the financial statements.
the independent public accounting firm’s
overall opinions on the Postal Service’s    We did not propose any adjustments or
financial statements and internal           identify issues that were material to the
controls over financial reporting.          financial statements or that would affect
                                            the overall adequacy of internal controls.
Our objectives were to determine
whether:                                    WHAT THE OIG RECOMMENDED:
                                            We did not propose any
   Financial accounting policies and       recommendations in this report.
    procedures provide for an adequate
    internal control structure and comply   Link to review the entire report
    with accounting principles.

   Accounting transactions are fairly
    stated.

   General ledger account balances
    conform to the general classification
    of accounts.

   The Postal Service complies with
    laws and regulations that have a
    direct and material effect on the
    financial statements.

WHAT THE OIG FOUND:
Financial accounting policies and
procedures provided for an adequate
internal control structure and complied
December 20, 2012

MEMORANDUM FOR:           TIMOTHY F. O’REILLY
                          VICE PRESIDENT, CONTROLLER


FROM:                     John E. Cihota
                          Deputy Assistant Inspector General
                           for Financial and Systems Accountability

SUBJECT:                  Audit Report – Fiscal Year 2012 Postal Service Financial
                          Statements Audit – San Mateo Accounting Services
                          (Report Number FT-AR-13-006)

This report presents the results of our audit of selected financial activities and
accounting records at U.S. Postal Service Accounting Services in San Mateo, CA, for
the fiscal year ended September 30, 2012 (Project Number 12BM003FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice Millett, director,
Finance, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Jean D. Parris
    Scott G. Davis
    Corporate Audit and Response Management
Fiscal Year 2012 Postal Service Financial Statements Audit –                                                       FT-AR-13-006
 San Mateo Accounting Services



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Progress on Prior Years’ Recommendations .................................................................. 2

Appendix A: Additional Information ................................................................................. 3

   Background ................................................................................................................. 3

   Objectives, Scope, and Methodology .......................................................................... 3

   Prior Audit Coverage ................................................................................................... 5
Fiscal Year 2012 Postal Service Financial Statements Audit –                                        FT-AR-13-006
 San Mateo Accounting Services



Introduction

This report presents the results of our audit of selected financial activities and
accounting records at U.S. Postal Service Accounting Services in San Mateo, CA for
the fiscal year (FY) ended September 30, 2012 (Project Number 12BM003FT000). We
conducted this audit in support of the independent public accounting firm’s (IPA) overall
opinions on the Postal Service’s financial statements and internal controls over financial
reporting. 1 This audit addresses financial risk. See Appendix A for additional information
about this audit.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. Also, the U.S. Congress passed Sarbanes-Oxley
(SOX) legislation in calendar year 2002 to strengthen public confidence in the accuracy
and reliability of financial reporting. Section 404 of SOX requires management to state
its responsibility for establishing and maintaining an adequate internal control structure
and make an assertion on the effectiveness of the internal control structure over
financial reporting. The Postal Accountability and Enhancement Act of 2006 requires the
Postal Service to comply with Section 404 of SOX. The Board of Governors (Board)
contracted with the IPA to express opinions on the Postal Service’s financial statements
and internal controls over financial reporting.

Conclusion

During our audit of San Mateo Accounting Services, we noted that:

   Financial accounting policies and procedures of the Postal Service provided for an
    adequate internal control structure 2 and complied with accounting principles
    generally accepted in the U.S.

   Accounting transactions at San Mateo Accounting Services impacting the general
    ledger account balances for assets, liabilities, equity, income, and expenses of the
    Postal Service were fairly stated in accordance with accounting principles generally
    accepted in the U.S.

   General ledger account balances conformed with the general classification of
    accounts of the Postal Service on a basis consistent with that of the previous year.




1
  The IPA maintains overall responsibility for testing and reviewing significant San Mateo Accounting Services
accounts and processes. The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work with the
IPA to ensure adequate coverage.
2
  To ensure key controls are properly designed and operationally effective.

                                                        1
        This report has not yet been reviewed for release under FOIA or the Privacy Act.
        Distribution should be limited to those within the Postal Service with a need to
        know.
Fiscal Year 2012 Postal Service Financial Statements Audit –                                         FT-AR-13-006
 San Mateo Accounting Services


   The Postal Service complied with laws and regulations relating to San Mateo
    Accounting Services that have a direct and material effect on the financial
    statements as a whole.

We did not propose any adjustments or identify any issues that were material to the
financial statements or that would affect the overall adequacy of internal controls.
However, the IPA identified other control deficiencies 3 affecting San Mateo Accounting
Services that were not in the scope of our audit and are not reported here. 4 The IPA
informed management of these issues on November 2, 2011. Accordingly, we did not
propose any recommendations in this report.

Progress on Prior Years’ Recommendation

During our FY 2010 audit, we reported that vehicle maintenance facilities (VMF)
personnel did not always adequately review or maintain supporting documentation for
shuttle service payments. 5 We recommended management develop and implement
standard operating procedures for review and retention of U.S. Auto Club (USAC)
invoices prior to payment. Management agreed with the recommendation and stated
they would establish steps for documenting and reconciling monthly USAC invoices
prior to payment. On February 24, 2012, management issued Vehicle Maintenance
Bulletin (VMB) 01-12, Vehicle Maintenance Repair for Shuttling Service, which included
procedures for reconciling monthly activity reports to the ordered vehicle shuttles/moves
during the month. Accordingly, we consider this issue closed.




3
  A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent or detect and correct misstatements timely.
4
  For example, the IPA identified an issue pertaining to SmartPay credit card approvals, documentation, and
reconciliation within the required time period.
5
  Fiscal Year 2010 Financial Statements Audit – San Mateo Information Technology and Accounting Service Center
(Report Number FT-AR-11-008, dated April 7, 2011), “Shuttle Services Payments.”

                                                         2
Fiscal Year 2012 Postal Service Financial Statements Audit –                                         FT-AR-13-006
 San Mateo Accounting Services


                                Appendix A: Additional Information

Background

San Mateo Accounting Services is one of three Accounting Services locations6 and
includes, as part of its functions, centralized accounting and disbursements. Its
employees are responsible for accounts payable, 7 centralized postage payments, 8
capital personal property, motor vehicles, and supply inventory.

We will issue a separate financial statements audit report for headquarters, St. Louis,
and Eagan Accounting Services. Further, in addition to the overall opinions on the
Postal Service’s financial statements and internal controls over financial reporting, the
Board’s IPA issued a separate report on its consideration of the Postal Service’s internal
controls and its test of compliance with certain provisions of laws, regulations, contracts,
and other matters. The purpose of that report was to describe the scope of testing of
internal controls over financial reporting and compliance and the results of that testing,
and not to provide an opinion on internal controls over financial reporting or on
compliance. 9 The OIG will also issue a separate report for the audit of FY 2012
information system controls at the Eagan, San Mateo, and St. Louis Information
Technology and Accounting Service Centers; and the Raleigh Information Technology
Service Center.

Objectives, Scope, and Methodology

The objectives of the audit were to determine whether: 10

   The financial accounting policies and procedures of the Postal Service provide for an
    adequate internal control structure 11 and comply with accounting principles generally
    accepted in the U.S.

   Accounting transactions at San Mateo Accounting Services impacting the general
    ledger account balances for assets, liabilities, equity, income, and expenses of the
    Postal Service are fairly stated in accordance with accounting principles generally
    accepted in the U.S.

   General ledger account balances conform to the general classification of accounts of
    the Postal Service on a basis consistent with that of the previous year.


6
  Other Accounting Services offices are located in St. Louis, MO, and Eagan, MN.
7
  Includes accounting for inventory purchases, contract cleaners, miscellaneous disbursements, commercial credit
cards, relocation, and headquarters and field office payables.
8
  The Centralized Account Processing System is an electronic postage payment system that provides business
mailers a method to pay postage at multiple post offices through a centralized account.
9
  In addition to the IPA’s work, these reports encompass work the OIG performed at headquarters, the three
Solutions Development and Support field sites, and the Raleigh, NC Information Technology Service Center.
10
   The IPA maintains overall responsibility for testing and reviewing significant San Mateo Accounting Services
accounts and processes. The OIG coordinated audit work with the IPA to ensure adequate coverage.
11
   To ensure key controls are properly designed and operationally effective.

                                                         3
Fiscal Year 2012 Postal Service Financial Statements Audit –                    FT-AR-13-006
 San Mateo Accounting Services


      The Postal Service complies with laws and regulations that have a direct and
       material effect on the financial statements taken as a whole.

As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. Our audit included tests originated by the OIG and re-performance of
management testing. We conducted this audit from November 2011 through December
2012 12 in accordance with the standards of the Public Company Accounting Oversight
Board (U.S.) (PCAOB) and the standards applicable to financial audits contained in the
Government Auditing Standards issued by the comptroller general of the U.S. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to limit audit risk to a low level that is, in our professional judgment,
appropriate for supporting the overall audit opinion on financial statements. Those
standards also require considering the results of previous engagements and following
up on known significant findings and recommendations that directly relate to the
objectives of the audit. An audit also requires a sufficient understanding of internal
controls to plan the audit and determine the nature, timing, and extent of audit
procedures to be performed. We believe the evidence obtained provides a reasonable
basis for our conclusion based on our audit objectives.

We supported the IPA in obtaining reasonable assurance about whether the financial
statements were free of material misstatements (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with the PCAOB
and Government Auditing Standards may not detect a material misstatement. However,
external auditors and the OIG are responsible for ensuring that appropriate Postal
Service officials are aware of any significant deficiencies that come to our attention. We
provided our observations and conclusions to management who, on
November 28, 2012, declined to meet formally.

We relied on computer-generated data from a number of Postal Service financial
systems, including:

      Accounting Enterprise Data Warehouse Reporting.
      National Accounting Oracle Financial Application – Oracle Accounts Payable
       System (NAOFA/OAP).
      Enterprise Imaging and Workflow System.
      Supplier Order Management System.
      eBuy2.
      Contract Authoring Management System.
      Property and Equipment Accounting System.
      Program Cost Tracking System.
      Vehicle Management Accounting System.
      Centralized Accounts Processing System.
      Solution for Enterprise Asset Management.


12
     The scope of our audit was October 1, 2011, through September 30, 2012.

                                                          4
Fiscal Year 2012 Postal Service Financial Statements Audit –                   FT-AR-13-006
 San Mateo Accounting Services


To assess the reliability of these systems’ data, we performed specific internal control
and transactions tests, including tracing selected financial information to supporting
source records for testing originated by the OIG. For example, we verified that
payments recorded in NAOFA/OAP were supported by certified invoices and the
amounts were properly applied to the appropriate general ledger accounts. We
determined that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage
                                                                Final
                                                               Report     Monetary
            Report Title              Report Number             Date       Impact
  Fiscal Year 2011 Postal              FT-AR-12-009            1/18/12      None
  Service Financial Statements
  Audit – San Mateo Accounting
  Service Center
  Report Results:
  We did not propose any adjustments; however, we reviewed internal controls over
  financial reporting and identified two issues regarding contractual payables. We
  identified issues regarding supplier signatures and contract labor rates and our
  review of contracts from the Contract Authoring Management System found one
  Basic Pricing Agreement that did not include a supplier’s signature. The IPA
  informed management of the issues on November 1, 2011. Consequently, we did
  not make any recommendations. We also found that management had not issued a
  VMB addressing reviews of supporting documentation for relocation services as
  part of the payment process. Management issued Vehicle Maintenance Bulletin
  VMB-01-12, Vehicle Maintenance Repair for Shuttling Service, which included
  procedures for reconciling monthly activity reports to the ordered vehicle
  shuttles/moves during the month. Accordingly, we consider this issue closed. See
  the Progress on Prior Years’ Recommendations section of this report.




                                                     5
Fiscal Year 2012 Postal Service Financial Statements Audit –                  FT-AR-13-006
 San Mateo Accounting Services




                                                                Final
                                                               Report    Monetary
           Report Title            Report Number                Date      Impact
  Fiscal Year 2010 Postal           FT-AR-11-008               4/07/11     None
  Service Financial Statements
  Audit – San Mateo Information
  Technology and Accounting
  Service Center
  Report Results:
  The Postal Service did not review supporting documentation for relocation services
  as part of the payment process, and personnel at a VMF were not adequately
  reviewing or maintaining supporting documentation for shuttle services prior to
  payment. We also identified control deficiencies regarding vehicle sales requests
  and eBuy purchases. Management agreed to conduct an annual sampling of
  invoices to review supporting documentation for relocation services and to develop
  and implement a standard operating procedure for review and retention of USAC
  invoices prior to payment. See the Progress on Prior Years’ Recommendation
  section of this report.

  Fiscal Year 2009 Postal              FT-AR-10-008       2/11/10            None
  Service Financial Statements
  Audit – San Mateo Information
  Technology and Accounting
  Service Center
  Report Results:
  San Mateo Accounting Services personnel did not compare payee information from
  Postal Service Forms 3533, Application for Refund of Fees, Products, and
  Withdrawal of Customer Accounts, to supporting documentation to ensure
  payments were addressed to the correct customers. Also, they could not validate
  invoice information transmitted by the non-mail freight transportation suppliers.
  Management revised standard operating procedures to include a review of
  supporting documentation and contacted the suppliers who began sending email
  notifications that indicate both the total number and values of the invoices. In 2009
  we continued to identify issues with capital personal property. However, during
  FY 2011, we reviewed the results of the Postal Service’s semiannual capital
  property reviews for 25 finance numbers. Because of management’s continued
  efforts and the fact that we found no exceptions, we considered this issue closed.




                                                     6
